<html>
<title> - PATHWAYS TO THE BOMB: SECURITY OF FISSILE MATERIALS ABROAD</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         PATHWAYS TO THE BOMB:
                  SECURITY OF FISSILE MATERIALS ABROAD

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2005

                               __________

                           Serial No. 109-26

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
26-800                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFAzio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Christopher Cox, California (Ex      Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack:
  Oral Sttement..................................................     1
  Prepared Statement.............................................     2
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................    20
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    26
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    18
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada,...............................................    17
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    28
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    24
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    30
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    22

                               WITNESSES

Mr. David Albright, Director, Institute for Science and 
  International Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6
Mr. Rose Gottmoeller, Senior Associate, Carnegie Endowment for 
  International Peace:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7


                         PATHWAYS TO THE BOMB:
                  SECURITY OF FISSILE MATERIALS ABROAD

                              ----------                              


                         Tuesday, June 28, 2005

                          House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Prevention of
                             Nuclear and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in Room 
2128, Rayburn House Office Building, Hon. John Linder [chairman 
of the subcommittee] presiding.
    Present: Representatives Linder, Lungren, Gibbons, Cox (ex 
officio), Langevin, Markey, Dicks, Harman, Norton, Christensen 
and Thompson (ex officio).
    Mr. Linder. The subcommittee will be in order.
    I want to thank our witnesses and the members of the 
subcommittee for being here today.
    Today's hearing constitutes the fifth hearing we have held 
to specifically discuss the nuclear threat, and I wanted to 
focus today on the location of weapons-usable nuclear material 
not just in the former Soviet Union countries, but around the 
world.
    This subcommittee will soon begin to consider legislation 
that will provide the Department of Homeland Security the 
authority it needs to be a full partner in the Federal 
Government's mission to prevent a nuclear terrorist incident 
from occurring in the United States. I look forward to each of 
our expert witnesses today providing the important context and 
detail on how prolific weapons-usable nuclear material is, and 
presenting for us the challenges, both technological and 
policy, that Congress will need to overcome to truly diminish 
this nuclear global threat.
    Some estimates indicate that approximately 2,400 metric 
tons of weapons-usable nuclear material is spread over two 
dozen countries, enough to build hundreds and thousands of 
nuclear weapons. Most of the weapons-usable plutonium, however, 
is actually held in the civilian sector.
    The challenge of securing weapons-usable nuclear material 
around the globe is a daunting task, but establishing and 
funding these programs without sound policies in place for 
accountability and measurable progress will create nothing more 
than a false sense of security.
    When it comes to nuclear terrorism, money does not equate 
to security, and a lack of accountability would be 
catastrophic. According to a National Journal article published 
last Friday, a Hiroshima-style nuclear device detonated in 
downtown Washington would instantly kill 15,000 people, with 
200,000 individuals potentially exposed to lethal doses of 
radiation within 24 hours. Property damage would total 
approximately $500 billion.
    The mission of this subcommittee is to ensure that such an 
attack never occurs. As such, I want to emphasize that we will 
be very focused on this critical issue and will continue to 
provide vigorous oversight and legislative guidance to the 
Department of Homeland Security in this effort.
    I will now yield to my colleague, Mr. Langevin from Rhode 
Island, for any comments he would like to make.
    [The information follows:]

             Prepared Opening Statement of Hon. John Linder

    I want to thank our witnesses and the Members of this Subcommittee 
for being here today. Today's hearing constitutes the fifth hearing 
that we have held to specifically discuss the nuclear threat, and I 
want to focus today on the location of weapons-useable nuclear material 
not just in the former Soviet Union countries, but around the world.
    This Subcommittee will soon begin to consider legislation that will 
provide the Department of Homeland Security the authority it needs to 
be a full partner in the Federal government's mission to prevent a 
nuclear terrorist incident from occurring in the United States. I look 
forward to each of our expert witnesses today providing the important 
context and detail on how prolific weapons-useable nuclear material is, 
and painting for us the challenges--both technical and policy-wise--
that Congress will need to overcome to truly diminish this global 
threat.
    Some estimates indicate that approximately 2,400 metric tons of 
weapons-useable nuclear material is spread over two dozen countries--
enough to build ?hundreds of thousands of nuclear weapons.? Most of 
this weapons-usable material, however, is actually held in the civilian 
sector.
    The challenge of securing weapons-usable nuclear material around 
the world is a daunting task. But establishing and funding these 
programs without sound policies in place for accountability and 
measurable progress will create nothing more than a false sense of 
security. When it comes to nuclear terrorism, money does not equate 
security, and a lack of accountability could be catastrophic.
    According to a National Journal article published last Friday, a 
Hiroshima-style nuclear device detonated in downtown Washington would 
instantly kill 15,000 people, with another 200,000 individuals 
potentially exposed to lethal doses of radiation within 24 hours. 
Property damage would total approximately $500 billion.
    The mission of this Subcommittee is to ensure that such an attack 
never occurs. As such, I want to emphasize that we will be very focused 
on this critical issue, and will continue to provide vigorous oversight 
and legislative guidance to the Department of Homeland Security in this 
effort.

    Mr. Langevin. Thank you, Mr. Chairman. And I would like to 
thank you for holding this hearing, and I would like to welcome 
our witnesses; and I look forward to hearing your testimony.
    After listening to witnesses at previous hearings and 
briefings held by this subcommittee, I feel that our government 
must accelerate its efforts to secure nuclear material at its 
source. Given what we have learned about the relative ease at 
which a terrorist could build a crude nuclear device, it is 
clear that the key to prevention is to do all we can to prevent 
them from obtaining the nuclear material in the first place.
    Given that the majority of fissile materials are located 
within Russia and its former republics, I am eager to get a 
sense of how well we are doing in the former Soviet Union. 
Security of fissile materials in Russia still concerns me, 
especially after the National Intelligence Council reported in 
December of 2004 that undetected smuggling of nuclear materials 
has occurred at Russian weapons facilities. Last week the 
subcommittee held a hearing at which a senior official from the 
Department of Energy stated that his Russian counterpart 
informed him that there were 200 cases of suspected smuggling 
of nuclear or radiological materials last year. I found that to 
be a shocking statistic. This testimony, coupled with the 
Intelligence Council report, does not give me great confidence 
in the security of fissile material abroad, and leads me to 
believe that if we don't move quickly, this material will 
eventually end up in the wrong hands.
    Additionally, security experts have begun to argue that 
nonproliferation programs like Nunn-Lugar should be expanded 
beyond the former Soviet Union to nations such as Pakistan, 
which pose similar risks. I agree that our government must 
broaden its focus, but I believe that for this effort to be 
successful, greater funding and diplomacy will be needed to 
complete the important work in Russia and embark on new efforts 
abroad.
    Finally, I would like to hear from our witnesses about how 
they feel our government could better coordinate its 
nonproliferation programs.
    A GAO report issued in January of this year stated that 
there is no overall plan that integrates the programs carried 
out by the Department of Defense and the Department of Energy. 
Integration is important as our government looks to expand its 
nonproliferation programs beyond Russia. As I have said in 
previous hearings, we must move with a sense of urgency to 
prevent terrorists from executing a nuclear attack on our own 
shores, and that most certainly begins with securing nuclear 
material at its source.
    Mr. Chairman, I thank you for holding this hearing today, 
and I look forward to hearing from our witnesses.
    Mr. Linder. Members are reminded that the policy of the 
subcommittee is if you elect a written statement, it will be 
part of the record without objection.
    I now turn to our witnesses. Mr. David Albright is the 
president of the Institute for Science and International 
Security in Washington, D.C. Prior to his current position, Mr. 
Albright served with the IAEA Action Team from 1992 to 1997, 
focusing on the analysis of Iraqi documents and past 
procurement activities.
    Ms. Rose Gottemoeller is a senior associate at the Carnegie 
Endowment for International Peace, specializing in defense and 
nuclear issues in Russia and other former Soviet states. Prior 
to joining the Endowment, Ms. Gottemoeller served as the Deputy 
Under Secretary for Defense Nuclear Nonproliferation in the 
United States Department of Energy.
    I turn to our witnesses, Mr. Albright.

 STATEMENT OF DAVID ALBRIGHT, DIRECTOR, INSTITUTE FOR SCIENCE 
                   AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Mr. Chairman, for holding this 
hearing and inviting me to testify today.
    Few goals are as important to U.S. National security as 
preventing terrorists from striking us with a nuclear weapon. I 
commend this committee for taking the time to try to explore 
the topics of nuclear terrorism in depth, focusing today on the 
amount, location and security of fissile material outside the 
former Soviet Union.
    As you know, plutonium and highly enriched uranium, or HEU, 
are essential ingredients in nuclear weapons, making them two 
of the most dangerous materials in the world. Toward preventing 
nuclear terrorism, it is vital to know the amount and location 
of both plutonium and highly enriched uranium in the world.
    I have provided the committee a table that lists ISIS's 
estimates of in-country stocks of highly enriched uranium and 
separated plutonium as of the end of 2003. These two 
categories, which contain about 24,000 tons of fissile 
material, represent the materials of most immediate concern in 
ongoing efforts to prevent nuclear terrorism.
    Roughly half of the HEU and separated plutonium, or about 
1,100 tons, is outside Russia. Although no country has stocks 
as large as Russia, about 40 countries have amounts of over 5 
kilograms of highly enriched uranium and require action. The 
fact that nuclear weapons can be made from kilograms of fissile 
material make even relatively small inventories potentially 
dangerous. These various stocks pose a range of challenges to 
U.S. National security and require a multitude of responses. I 
would like to quickly discuss the higher-priority inventories.
    One of the most challenging is Pakistan. Its inventory of 
roughly 1 ton of fissile material, most of which is highly 
enriched uranium in its nuclear weapons program has a physical 
security that remains in question. In addition, if the regime 
becomes unstable, the security of the stock can become 
vulnerable to theft or diversion. If the regime becomes 
fundamentalist, it can become anti-American, and it could 
possibly transfer HUE to terrorists.
    While 17 countries outside of Russia have received highly 
enriched uranium for their civilian research and test reactors, 
currently about 12 of these countries have a Russian supply of 
HEU, and roughly 1-1/2 tons of the HEU remains in those 
countries. And the U.S. is working with Russia to repatriate 
these materials and convert remaining research reactors to low 
enriched uranium fuels. LEU cannot be used in nuclear weapons. 
Nonetheless, this effort is progressing somewhat slower than 
desired.
    China and India's fissile material stocks are shrouded in 
secrecy. India has both civil and military stocks, and China 
has about 26 tons of military stocks. Knowledge about the 
vulnerability of these stocks remains uncertain.
    The U.S. has been engaged for years in an effort to 
repatriate its U.S. supply of HEU to foreign civil research and 
test reactors. This effort has targeted about 5 tons of highly 
enriched uranium in over 30 countries. Again, this effort is 
making progress, although it has proven time-consuming.
    The last stock I would like to mention is South Africa's, 
and this one poses a very special concern. It has about 500 
kilograms of unradiated HEU, or over about 600 kilograms total 
HEU. In the early 1990s, it resisted selling its HEU to the 
United States and Europeans; instead, it decided to hold onto 
this material for eventual use in its Safari Research Reactor. 
U.S. efforts to convert this reactor to LEU fuels have 
progressed very slowly. Parallel efforts to convince South 
Africa to blend down its stock of HEU have likewise encountered 
difficulties.
    Further complicating the situation, South Africa's stock of 
HEU is not currently eligible for shipment to Russia or the 
United States; in a sense it is orphaned and requires special 
attention.
    This concludes my initial statement. I would be happy to 
answer questions.
    Mr. Linder. Thank you, Mr. Albright.
    [The statement of Mr. Albright follows:]

    [GRAPHIC] [TIFF OMITTED] T6800.001
    
    [GRAPHIC] [TIFF OMITTED] T6800.002
    
    [GRAPHIC] [TIFF OMITTED] T6800.003
    
    [GRAPHIC] [TIFF OMITTED] T6800.004
    
    [GRAPHIC] [TIFF OMITTED] T6800.005
    
    [GRAPHIC] [TIFF OMITTED] T6800.006
    
    [GRAPHIC] [TIFF OMITTED] T6800.007
    
    [GRAPHIC] [TIFF OMITTED] T6800.008
    
    [GRAPHIC] [TIFF OMITTED] T6800.009
    
    Mr. Linder. Ms. Gottemoeller.

  STATEMENT OF ROSE GOTTEMOELLER, SENIOR ASSOCIATE, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Ms. Gottemoeller. Thank you, Mr. Chairman, and to the 
members of the committee as well, for this opportunity to 
testify today.
    I thought I would build on the picture that David Albright 
laid out about the threat essentially as it is outside of the 
former Soviet states by talking about how we might accelerate 
the programs.
    I have to say the Bush administration deserves praise for 
drawing together a number of disparate U.S. Government projects 
into a comprehensive program called the Global Threat Reduction 
Initiative, and they have engaged the Russian Federation 
effectively in that effort. But at the Carnegie Endowment, I 
recently participated in a comprehensive study of the future of 
the nonproliferation regime called Universal Compliance, in 
which we laid out the case for an accelerated Global Threat 
Reduction Initiative, or accelerated global clean-out, as it is 
sometimes called. While the administration would like to carry 
out this program within 10 years, our view is that we should 
vigorously identify, secure and remove material from all of the 
most vulnerable sites within 4 years, or by 2008.
    We do not have the luxury of a 10-year program if we 
believe that terrorists will target for theft the fissile 
materials stored at remote locations, such as those Mr. 
Albright just discussed. It may be their best shot at stealing 
enough nuclear explosive material to immediately construct a 
nuclear weapon or improvised nuclear device that could be 
exploded in a U.S. City.
    The Carnegie team agrees in Universal Compliance that the 
major obstacles to faster implementation of the program are 
inadequate staffing and financing, and a disproportionate 
emphasis on conversion rather than shutdown of older 
unnecessary facilities. And by the way, this is also an 
argument made in a recent Harvard study, Securing the Bomb 
2005.
    Thus we believe that more creative approaches, such as 
engaging a larger number of international partners, developing 
more innovative contracting, and undertaking multiple 
diplomatic operations simultaneously, are needed. Moreover, 
given the urgency of the mission in addressing this horrific 
threat, an increase of $30--to $40 million per year over the 
administration's $98 million fiscal year 2006 request seems 
justified.
    A key factor in the acceleration, however, will not be the 
funding, but will rather be judicious negotiation of incentives 
and achieving a more intensive and nuanced diplomacy than we 
have engaged in to this point. I argue in my testimony that two 
directions in U.S. Policy should be pursued to make this more 
intensive and nuanced diplomacy possible. The first has to do 
with a package of tools or incentives that the United States 
might put to work at the negotiating table. The second has 
simply to do with the structure of the teams involved in the 
negotiations. I will give you a few examples of what I mean in 
each case, but I want to stress that in order to succeed with a 
global clean-out, the United States must first and foremost 
pursue a comprehensive negotiating effort that responds to the 
national interests of its negotiating partners.
    So, for example, the United States should ensure that it 
undertakes a thorough examination of the least cost, most 
efficient means and methods to achieve success in a take-back 
project. Perhaps Russia is the most efficient partner in some 
cases, but perhaps our EU partner countries who are involved in 
the so-called Global Partnership Against the Spread of Weapons 
and Materials of Mass Destruction might be engaged as well, and 
in certain cases might be the most efficient partners to carry 
out an operation. Likewise, I think full account needs to be 
taken of the nongovernmental organizations and commercial 
companies that are engaged in these issues and the services 
that they are able to offer.
    I know a few weeks ago you heard from Ms. Laura Holgate of 
the Nuclear Threat Initiative. NTI has really done a very 
positive job in recent years in partnering with our government 
to try to speed up these programs, and that kind of 
partnership, public/private partnership, needs to be further 
developed.
    Another issue for the negotiators, which is a key one, I 
believe, for the Congress, has been the limited flexibility 
that they have had with regard to the use of funds. It is clear 
that in order for the United States to succeed at this effort 
on an accelerated basis, its negotiators will need additional 
flexibility in offering to expend funds to address spent fuel 
conversion and possibly cleanup of facilities. This is a key 
area, as I mentioned, where Congress can be helpful to the 
negotiating process.
    But another issue simply has to do with the structure of 
the teams; and this is a very simple point, but it is one that 
I do think is important. The effort to accelerate GTRI will 
require more intensive diplomacy, and I believe that the Global 
Threat Reduction Initiative should be permitted to recruit 
additional personnel in order to be able to intensify the pace 
of diplomacy activity, and I mean experienced former diplomats, 
experienced technical specialists who have been working, 
perhaps, with our U.S. weapons lab or the International Atomic 
Energy Agency. They need not be hired on a full-time or long-
term basis, but could be brought on board on a time-limited 
contract basis. And then they should be organized in a 
particular way to be most effective in carrying out 
simultaneous negotiations with a number of countries at once. 
At the present time we carry out these negotiations seriatim, 
and it does take a very long time; and the example of South 
Africa is one, again, that Mr. Albright raised.
    I talk about the experience of so-called Project Sapphire 
in 1994, where within 6 months we removed enough highly 
enriched uranium for 25 nuclear bombs from Kazakhstan, making 
use of a structure that we call the Tiger Team structure, which 
was a particular way of organizing the work inside the 
executive branch, but it gave the players a great deal of 
independence and flexibility and authority to move issues 
quickly through the negotiating and bureaucratic process.
    So, again, it is a somewhat simple point, Mr. Chairman, but 
I do believe that in this way there can be some quick progress, 
and it doesn't require new money or a whole lot of heavy 
lifting, but it does require our agencies or government to be 
thinking in a different way.
    So in conclusion, I would like to stress that the Global 
Threat Reduction Initiative, in my view, is a program of great 
promise, but just over a year after its launch, it needs 
attention and a firm hand if it is to fulfill that promise. It 
is my view that such a funding base, if it could be established 
at a level of approximately $30--or $40 million per year over 
the administration's current request of $98 million, would 
provide for an accelerated removal of HEU from the most 
vulnerable sites in 4 years rather than 10.
    And then I would like to underscore that in the end we need 
additional partners, both government and nongovernment; and we 
should be thinking of additional steps that are simple and 
don't cost money, but can make a difference to this effort.
    Again, thank you, Mr. Chairman and members of the 
committee, and I look forward to your questions.
    Mr. Linder. Thank you, Ms. Gottemoeller.
    [The statement of Ms. Gottemoeller follows:]

              Prepared Statement of Hon. Rose Gottemoeller

    Thank you, Mr. Chairman and distinguished Members of the Committee, 
for this opportunity to appear before the House of Representatives 
Committee on Homeland Security, Subcommittee on Prevention of Nuclear 
and Biological Attack. Today we are discussing with you the vital issue 
of fissile material that is located in as many as 46 countries around 
the world. According to the General Accounting Office, 128 research 
reactors or associated facilities worldwide have 20 kg or more of 
highly enriched uranium (HEU), which would likely be the material of 
choice for illicit bomb-makers, because it is easier to fashion into a 
simple device than its sister material, plutonium.\1\ Many of the 
facilities where HEU is found are devoted to scientific research and 
development, or they are engaged in the production of isotopes for 
cancer and other medical treatments. Therefore, they frequently serve 
an important role in the scientific endeavor of the state where they 
are located, or in the health and welfare of its public.
---------------------------------------------------------------------------
    \1\ General Accounting Office, ``Nuclear Nonproliferation: DOE 
Needs to Take Action to Further Reduce the Use of Weapons-Usable 
Uranium in Civilian Research Reactors,'' July 30, 2004, p. 28, found at 
http://www.gao.gov/new.items/d04807.pdf, accessed June 26, 2005.
---------------------------------------------------------------------------
    Against this positive picture must be balanced the threat that 
fissile materials pose when they are located at far-flung facilities, 
some of them in politically troubled or even unstable countries. In a 
recent study, a RAND Corporation research team highlighted how Aum 
Shinrikyo and Al-Qa'ida, two notorious, widely dispersed terrorist 
groups, had worked hard throughout the 1990s to acquire nuclear 
materials for weapons. Although they ultimately appeared to have failed 
in that period, the ambition of terrorist groups to do so no doubt 
remains strong. Indeed, the third case study that the RAND team 
describes is one involving a research reactor in Kinshasha, Zaire, from 
which two nuclear fuel rods were stolen in the 1970s, one of which 
eventually ended up being offered for sale to the Italian Mafia. Thus, 
the supply and demand sides both remain active.\2\
---------------------------------------------------------------------------
    \2\ Sara Daly, John Parachini, William Rosenau, ``Aum Shinrikyo, 
Al-Qa'ida, and the Kinshasa Reactor: Implications of Three Case Studies 
for Combating Nuclear Terrorism,'' Documented Briefing, RAND Project 
Air Force, 2005. Zaire is now called the Democratic Republic of Congo.
---------------------------------------------------------------------------
    It is this intersection between known terrorist interest in 
acquiring bomb-making materials and small caches of these materials in 
widely dispersed facilities around the world that led to the creation 
of the Global Threat Reduction Initiative (GTRI) in the Department of 
Energy. While states can be deterred from using nuclear weapons by fear 
of retaliation, terrorists, who have neither land, people nor national 
futures to protect, may not be deterrable. Terrorist acquisition of 
nuclear weapons therefore poses the greatest single nuclear threat. And 
the gravest danger arises from terrorists gaining access to stockpiles 
of fissile materials, because acquiring a supply of nuclear material 
remains the most difficult challenge for a terrorist group.
    So-called outlaw states are not the most likely source. Their 
stockpiles are small and precious, and hence well-guarded. They are not 
likely to give away what they see as the crown jewels in their security 
crowns. Rather, the most likely sources of nuclear materials for 
terrorists are storage areas in the states of the former Soviet Union 
and in Pakistan, and fissile material kept at these dozens of civilian 
sites around the world.\3\
---------------------------------------------------------------------------
    \3\ This ``Global Nuclear Threat Assessment'' is further discussed 
in George Perkovich, Jessica T. Mathews, Joseph Cirincione, Rose 
Gottemoeller, and Jon B. Wolfsthal, Universal Compliance: A Strategy 
for Nuclear Security, Carnegie Endowment for International Peace, March 
2005, pp. 26-32.
---------------------------------------------------------------------------
    GTRI concerns itself with fissile materials stored at sites that 
were built both with U.S. and Soviet assistance. During the Cold War, 
these two nuclear arch-rivals competed for influence by providing 
``peaceful nuclear assistance,'' supplying research reactors to 
countries around the world in the interest of drawing them closer. In 
the U.S. case, this was done under President Eisenhower's Atoms for 
Peace program. The Soviet program was very similar in its rationale. In 
fact, as the RAND study puts it, ``the competition between the United 
States and the USSR. . .in many ways led to creation of the 
International Atomic Energy Agency (IAEA). . .to monitor and inspect 
these facilities, and to prevent the proliferation of nuclear 
weapons.''\4\
---------------------------------------------------------------------------
    \4\ ``Aum Shinrikyo, Al-Qa'ida, and the Kinshasa Reactor,'' p. 54.
---------------------------------------------------------------------------
    It is thus to be applauded that a decade and a half after the 
break-up of the Soviet Union, the United States and Russian Federation 
have joined together to try to address this dangerous Cold War legacy. 
This effort began in the 1990s, with efforts to establish priority 
projects to return highly enriched uranium from former Soviet 
facilities to safe-keeping. The earliest was the very successful 1994 
Sapphire Project, in which the United States, working together with 
Kazakhstan and Russia, removed 581 kgs of HEU from Kazakhstan to 
storage and eventual disposition in the United States. This material 
had been apparently been scouted by Iranian agents, and empty canisters 
marked with Tehran addresses were found in the room next to where the 
material was stored.\5\ A similar project, ``Auburn Endeavor,'' was 
carried out in Georgia in 1998, although it involved less than 5 kgs of 
highly enriched uranium.\6\ This material was taken for safe storage to 
the United Kingdom.
---------------------------------------------------------------------------
    \5\ For more on Project Sapphire, see http://www.nti.org/db/
nisprofs/kazakst/fissmat/sapphire.htm, accessed July 18, 2005.
    \6\ For more on Auburn Endeavor, see http://www.nti.org/db/
nisprofs/georgia/auburn.htm, accessed July 18, 2005.
---------------------------------------------------------------------------
    The difficulty with expanding beyond these early cases was that the 
effort fell prey to an uncertain legal environment in the Russian 
Federation as well as the necessity of arduous and lengthy negotiations 
to set down procedures and arrangements for the material to be moved. 
Only after 2001 did the legal situation improve, when the Russian Duma 
passed a package of laws permitting the return of spent fuel to Russia. 
However, implementation of these laws in Russia has continued to be 
very difficult, with public protests and uncertainty about the purview 
of the legal regime playing a strong role.\7\
---------------------------------------------------------------------------
    \7\ For more on the Russian legal scene, see http://www.nti.org/db/
nisprofs/russia/reactor/waste/snf.htm, accessed June 26, 2005.
---------------------------------------------------------------------------
    As for the United States, it had long had a program to return HEU 
fresh and spent fuel from research reactors that it had built under the 
Atoms for Peace program. It also had a program, the ``Reduced 
Enrichment for Research and Test Reactors'' or RERTR program, to 
develop low enriched uranium (LEU) fuel for such reactors and provide 
for their conversion. The difficulty was that these programs were at a 
low level of priority, visibility and funding--not at all commensurate 
with the serious threat that they were trying to confront.
    A nongovernmental organization, the Nuclear Threat Initiative, 
undertook an important initiative to raise the profile of this effort 
after 2000, providing some significant funding to supplement and assist 
the U.S. and Russian government programs. The first success of this 
public-private partnership was the removal of HEU fuel from the Vinca 
research reactor in Belgrade in August 2002.\8\ The NTI involvement 
served as an important catalyst to accelerate the government effort, 
but it still labored in an environment of disparate bureaucratic actors 
and agencies and uncertain budgets.
---------------------------------------------------------------------------
    \8\ For more on the Vinca operation, see http://www.nti.org/e--
research/profiles/Yugoslavia/index--3977.html, accessed July 18, 2005.
---------------------------------------------------------------------------
    Therefore, it is to the great credit of the Bush Administration 
that in May 2004, they established a coherent program, the Global 
Threat Reduction Initiative or GTRI. The Administration drew together 
offices and activities that had existed in various parts of the 
Department of Energy, and began the work needed to establish a stable 
budget at higher levels of funding. The budget request for fiscal year 
2006 was a net increase of $4.3 million over fiscal year 2005, to $98 
million.\9\
---------------------------------------------------------------------------
    \9\ William Hoehn, ``Preliminary Analysis of the U.S. Department of 
Energy's Fiscal Year 2006 Nonproliferation Budget Request,'' RANSAC 
Policy Update, February 9, 2005, found at http://www.ransac.org/
Publications/Congress%20and%20Budget/index.asp, accessed June 26, 2005. 
It should be noted that GTRI was forced to absorb some programs with no 
additional funding.

Difference with Administration Approach
    The Bush Administration deserves praise both for drawing together a 
number of disparate U.S. government projects into a comprehensive 
program, the Global Threat Reduction Initiative, and for involving the 
Russian Federation effectively in the effort. Where we differ with the 
Administration, however, is in their sense of the speed with which GTRI 
can be carried out. At the Carnegie Endowment, I recently participated 
in a comprehensive study on the future of the nonproliferation regime, 
Universal Compliance, in which we laid out the case for an accelerated 
GTRI, or as many in the expert community call it, an ``accelerated 
global clean-out.'' We argue that the United States, Russia and other 
partner countries should vigorously identify, secure, and remove 
nuclear material from all of the most vulnerable sites within four 
years, or by 2008.\10\
---------------------------------------------------------------------------
    \10\ Universal Compliance, p. 89. It must be emphasized that we are 
not arguing that HEU can be removed from all HEU-fueled research 
reactors in four years. Some will require a process of conversion to 
LEU fuels that will take longer. However, HEU can be removed from the 
most vulnerable sites, and security upgrades can be completed at sites 
that are not possible to convert to LEU in that time.
---------------------------------------------------------------------------
    By contrast, current Administration plans call for implementing 
GTRI goals within ten years. In our view, this is perilously slow: 
civilian research reactor facilities are the most vulnerable sources of 
nuclear materials worldwide, especially to terrorists who are bent on 
acquiring the bomb. Forty-six countries are known to possess weapon-
usable uranium, and an estimated 50 metric tons are currently being 
held as stocks for power and research reactors.\11\
---------------------------------------------------------------------------
    \11\ See Tables 4.1 and 4.2, Universal Compliance, pp. 86-87.
---------------------------------------------------------------------------
    We simply do not have the luxury of a ten-year program, if we 
believe that terrorists will target for theft such fissile materials 
stored at remote locations. It may be their best shot at stealing 
enough nuclear explosive material to immediately construct a nuclear 
weapon or improvised nuclear device that could be exploded in a U.S. 
city.
    The Carnegie team argues in Universal Compliance that the major 
obstacles to faster implementation of the program are inadequate 
staffing and financing, and a disproportionate emphasis on conversion--
rather than shutdown--of older, unnecessary facilities. A recent 
Harvard study, Securing the Bomb 2005, also argues that most of the 
world's research reactors are aging and unneeded. It notes that 56 HEU-
fueled research reactors are currently considered too difficult to 
convert to LEU. A carefully developed package of incentives could 
provide the needed impetus to increase the number of reactor shut-down 
projects, as long as it is crafted in such a way that it will not be 
considered anti-science or anti-nuclear by the world nuclear 
community.\12\
---------------------------------------------------------------------------
    \12\ Matthew Bunn, Anthony Wier, Securing the Bomb 2005: The New 
Global Imperatives, Nuclear Threat Initiative and the Project on 
Managing the Atom, Harvard University, May 2005, available at http://
www.nti.org/e--research/report--cnwmupdate2005.pdf (accessed June 27, 
2005).
---------------------------------------------------------------------------
    Thus, more creative approaches, such as engaging a larger number of 
international partners, developing more innovative contracting, and 
undertaking multiple operations simultaneously, are needed. With the 
necessary resources and emphasis, the ten-year goal can--and should--be 
met in four years.\13\
---------------------------------------------------------------------------
    \13\ Universal Compliance, p. 89-90. See also Matthew Bunn, Anthony 
Wier, and John P. Holdren, Controlling Nuclear Warheads and Materials: 
A Report Card and Action Plan, Nuclear Threat Initiative and the 
Project on Managing the Atom, Harvard University, March 2003, available 
to www.nti.org/e--research/cnwm/overview/report.asp (accessed April 27, 
2004).
---------------------------------------------------------------------------
    It is worth emphasizing that the cost of removing fissile material 
from vulnerable sites around the world need not be large, but it is 
still subject to a number of uncertainties.\14\ The current GTRI 
program provides funding for the security of radiological sources, and 
for security upgrades at the sites. Thus, the budget required for 
removing fissile materials from vulnerable sites must be distinguished 
from those programs. In addition, the total cost of removing materials 
must take account of what tools or incentives will be required to 
overcome the natural reluctance of decision-makers, scientists and 
facility managers to give up their HEU. They are likely to be concerned 
about whether they will be able to achieve the same research or isotope 
production results without it.
---------------------------------------------------------------------------
    \14\ In the fiscal year 2005 authorization for the programs, 
Congress required a report that is to include a plan for removal of 
vulnerable nuclear material around the world, and an estimate of the 
costs of implementing such a plan. Since this report would be based on 
the full range of information available to the U.S. government, it will 
be important for confirming any estimate of the total budget required 
for the removal of fissile material from vulnerable sites.
---------------------------------------------------------------------------
    However, given the urgency of the mission in addressing this 
horrific threat, an increase of $30-40 million per year over the 
Administration's $98 million fiscal year 2006 request seems justified. 
A stable and reliable funding base at this level would permit 
accelerated work to be accomplished in four years.
    A key factor in this acceleration will be judicious negotiation of 
incentives. We believe that the success of an accelerated global clean-
out depends to a great extent on achieving more intensive and nuanced 
diplomacy than we have engaged in to this point. The countries that 
should be contemplating a quick removal of HEU from their nuclear 
research programs will have to be assured that their national interests 
will continue to be served if they agree to this course. Indeed, they 
should perceive that their interests will be accomplished even more 
effectively than before.
    Two directions in U.S. policy should be pursued to make this more 
intensive and nuanced diplomacy possible. The first has to do with the 
package of tools that the United States puts to work at the negotiating 
table. The second has to do with the structure of the teams involved in 
the negotiations. Let us examine these in turn.

Negotiating Tools
    Although GTRI has achieved some successes in the 13 months since 
its creation--small quantities of HEU have been removed from Libya, 
Uzbekistan, the Czech Republic and Latvia--the program in some cases 
has left the job half done. In Libya, for example, once the highly 
enriched uranium was taken to the United States, the U.S. promised to 
convert the Libyan research reactor, providing it with an LEU core. 
This promise thus far has not been fulfilled.
    In other cases, the deal has been structured in a way to make it 
more expensive or complicated to carry out. The highly enriched uranium 
from the reactor in Latvia, for example, was sent to the United States 
on a special transport plane. It could have been transported to France, 
like Latvia an EU member state, on a commercial basis, thus achieving 
cost savings and speeding up the process.
    In yet other cases, the U.S. negotiators did not have the resources 
readily available to offer a clear path forward to the negotiating 
partner. For example, although the HEU was removed from the Vinca 
reactor in Belgrade in 2002, no conversion of the reactor has taken 
place, nor has the spent fuel been removed, nor have cooperative 
research activities materialized with the scientific staff at the 
facility. The United States has simply not had the flexibility with its 
existing funding to move forward in these promised areas.
    Of course, one might say that the main goal at Vinca has been 
achieved, the removal of the HEU, and in Libya as well, and the United 
States need not bother with these lesser activities. If the U.S. 
proceeds in this way, however, it will have a very negative impact on 
the willingness of other countries to part with their HEU. In order to 
succeed with a global clean-out, the United States must first and 
foremost pursue a comprehensive effort that responds to the national 
interests of its negotiating partners.
    These examples suggest some tools that the U.S. should put in place 
to succeed with a comprehensive effort:
    1. The United States should ensure that it undertakes a thorough 
examination of the least-cost, most efficient means and methods to 
achieve success in a take-back project. In doing so, the U.S. should 
take into account the views of its negotiating partner. In some cases, 
other countries beyond Russia (e.g., in the EU) might be capable of 
moving the material more quickly and efficiently, and for less cost. A 
larger international circle involved in the GTRI is entirely consistent 
with the goals and rationale of the Global Partnership against the 
Spread of Weapons and Materials of Mass Destruction, which was begun as 
a G-8 effort in 2002, but has now spread to a wider community of 
countries.\15\
---------------------------------------------------------------------------
    \15\ Information about the reach of the Global Partnership beyond 
the G-8 may be found at www.state.gov/t/np/rls/fs/34967.htm (accessed 
January 10, 2005).
---------------------------------------------------------------------------
    2. Likewise, full account should be taken of the non-governmental 
organizations and commercial companies that are engaged in these 
issues, and the services that they are able to offer. In many cases, 
they will have well-established relationships that might help to 
achieve greater efficiencies, or provide good contacts to speed the 
negotiations. It is often said that the time taken to achieve mutual 
confidence at the negotiating table is time well-spent, but if another 
entity, including a non-governmental one, can provide good entree to a 
country's decision-makers and reactor operators, then that entree 
should certainly be tapped to accelerate the process. This point has 
already been borne out by the positive impact that the Nuclear Threat 
Initiative, a non-profit entity, has had on implementation of HEU take-
back projects.
    3. In either the government or non-government case, close attention 
should be paid to means and methods to speed up the contracting 
process, for delays in that arena can easily turn into a source of 
frustration for the negotiating partner. Ample experience in 
contracting and subcontracting has been gained in recent years in the 
material protection, control and accounting; the plutonium reactor 
shutdown; the launcher elimination; and other bilateral programs with 
Russia. This experience should be tapped for ways to ease the delays in 
contracting that have dogged the GTRI program, which in turn will 
translate into greater flexibility and progress at the negotiating 
table.
    4. Another issue for negotiators has been the limited flexibility 
that they have had with regard to the use of funds. For example, a deal 
might be struck to purchase HEU fuel from a country, as long as it was 
part of a comprehensive package to also remove spent fuel and convert 
and clean-up the facility site. This was the preferred course for the 
Yugoslav team at the Vinca reactor in Belgrade. However, as mentioned 
above, only the HEU part of the equation has been fully solved at this 
point. With this glaring example hanging over new negotiations that are 
undertaken, it is clear that in order for the United States to succeed, 
its negotiators will need additional flexibility in offering to expend 
funds, to address spent fuel, conversion, and possibly clean-up of 
facilities. This is a key area where the Congress could help, by 
providing more flexibility in the authorities available to the GTRI 
program.
    5. Often, a key factor slowing the negotiations has been the 
availability of funds for a goal of paramount importance to the partner 
country, ensuring that its nuclear scientists will continue to have 
interesting work to do, despite the removal of HEU from their 
territory. This was a very important issue in one of the earliest 
negotiations, Auburn Endeavor, in which fresh and spent HEU fuel was 
removed from a reactor site in Georgia. Afterwards, Georgian scientists 
came to the United States to establish research contacts with U.S. 
counterparts, and some joint projects were undertaken. Thus, as a 
result of cooperation with the United States to remove HEU from 
Georgian territory, Georgian scientists benefited. Ideally, such 
measures should be agreed in the course of negotiating a take-back 
program. They should be designed to give the partner country an active 
program of cooperation that would strengthen its science and technology 
base.
    Although some of these tools might require additional funding, 
others could be funded from existing programs or draw on existing 
funding sources. For example, up to $50 million was made available in 
the fiscal year 2004 Defense Authorization bill for cooperative threat 
reduction work outside the former Soviet Union.\16\ Funds of this type 
could be used for exchanges involving scientists at research reactor 
facilities participating in the GTRI program. This is a good example of 
a situation where it will be important to ensure that the 
Administration has adequate flexibility to use existing funds for the 
purpose of speeding up the GTRI program.
---------------------------------------------------------------------------
    \16\ See Section 1308 of the National Defense Authorization Act of 
Fiscal Year 2004 (PL 108-136;117stat.1662;22USC 5963).
---------------------------------------------------------------------------
    In some cases, making use of these tools will simply require more 
flexibility in U.S. government procedures and operations. For example, 
the recent difficulties that scientists have had in gaining visas to 
study and conduct research in the United States are well-documented, 
most recently in a report by the American Civil Liberties Union (ACLU). 
This report showed a 28% drop in applications to U.S. universities from 
foreign graduate students in 2003, and an 18% drop in admissions.\17\
---------------------------------------------------------------------------
    \17\ This report of the American Civil Liberties Union, Science 
under Siege, may be found at http://www.aclu.org/Privacy/
Privacy.cfm?ID=18534&c=39, accessed June 26, 2005.
---------------------------------------------------------------------------
    Although it would be most beneficial for this issue to be resolved 
in a comprehensive manner, in the interest of progress in U.S. science 
and technology overall, a special visa program might have to be devised 
for purposes of speeding up the GTRI program. Undoubtedly, such a 
program would be in the overall national security interest of this 
country, if it contributes to an accelerated return of highly enriched 
uranium to safe storage and disposition in the United States.
    The United States, it is important to stress, should not be the 
only country deploying these tools. The Russian Federation, as a key 
player in the Global Threat Reduction Initiative, should also be 
willing to provide research opportunities, including smoothing the way 
for visas and other administrative arrangements in Russia. In addition, 
countries in Europe and Asia that are members of the Global Partnership 
might be involved in providing research facilities for scientists from 
GTRI partner countries, as part of their contributions to the Global 
Partnership. Thus, the responsibility for implementing GTRI would 
expand, as it should, to additional countries. Given the dire threat 
that dispersed HEU poses, such an approach would provide a way for 
these countries to take low-cost action in the interest of all.

Team Structure
    In addition to these tools for the negotiating table, the effort to 
accelerate GTRI will require more intensive diplomacy than has been 
conducted up to this point. Currently a rather small group of 
individuals in the Departments of State and Energy is responsible for 
the diplomacy required to move HEU back to the United States. As 
effective as those individuals might be in engaging any country, they 
can only negotiate in a single capital at a time. This ``one at a 
time'' approach contributes not only to the slowing of the overall 
process, but also contributes to fatigue, sometimes severe, among those 
involved, as they have to prepare for negotiations in one country after 
another.
    For that reason, I recommend that Global Threat Reduction 
Initiative be permitted to recruit additional personnel, in order to be 
able to intensify the pace of the diplomatic activity. They need not be 
hired on a full-time basis, but could be brought on board on time-
limited contracts. Experienced individuals should be sought--for 
example, retired diplomats who have dealt with nuclear nonproliferation 
issues, as well as technical personnel who have perhaps served with the 
International Atomic Energy Agency (IAEA) or with the U.S. nuclear 
laboratories. In that way, GTRI could acquire a considerable amount of 
additional expertise quickly, both in terms of the technical matters 
involved, and in terms of negotiating experience.
    This expanded group of diplomats and experts should then be 
structured in an effective manner. Based on the experience of Project 
Sapphire, I recommend the formation of ``tiger teams.''
    The tiger team concept emerged out of necessity, in the summer of 
1994, when the U.S. government first discovered the Sapphire material--
as mentioned above, 581 kgs of highly enriched uranium, material that 
could produce 20-25 bombs. This material had been abandoned at a remote 
facility in Kazakhstan and had already been scouted by Iranian agents. 
Kazakhstan's leaders, to their credit, urgently asked for U.S. 
assistance in removing the material to safekeeping. Winter would soon 
close in. They feared that if the HEU was not removed before snow fell, 
it would be gone--stolen or illicitly sold--by the time spring arrived. 
The United States, working together with Kazakhstan and the Russian 
Federation, had three months to get the job done.
    Because of this urgency, the United States formed a group of mid-
level government officials and laboratory personnel, who collectively 
had significant experience in solving problems and overcoming 
bureaucratic barriers in their agencies. They were given a clear 
deadline and task: all of the HEU had to be flown out of Kazakhstan by 
the end of November 1994. They were also given authority to pledge 
resources on behalf of their agencies, and direct lines of 
communication to a high-level interagency group that was based in the 
National Security Council and could help them to quickly solve 
roadblocks.
    This Sapphire tiger team was able to solve a myriad of problems 
quickly, from technical details on the ground in Kazakhstan--what types 
of transport containers should be used, and how would transport 
aircraft land?--to domestic legal questions in the United States. They 
also were involved in multilevel diplomacy, which involved Kazakhstani 
technical experts on the ground at the site, senior decision-makers in 
Almaty, and also senior decision-makers in Moscow and Washington. Their 
ability to take responsible decisions, or move them quickly up the 
chain if they could not, was a vital factor in enabling the Sapphire 
operation to be completed on time.
    I would like to emphasize the role of on-going links to high-level 
decision-makers, because that is the factor that contributed most 
strongly to the success of the tiger team in Project Sapphire. It is 
unrealistic for top officials to be routinely engaged in implementing a 
program--they simply have too many responsibilities to pay attention on 
a day-in, day-out basis to the myriad of details at play. However, 
those who are charged with implementing the program need to know that 
they can refer issues to their top leaders on a timely basis, if they 
cannot be resolved otherwise. Having a program established as a top 
government priority, with agreed deadlines, helps to establish that 
link. However, having a coherent interagency group, established in the 
National Security Council and meeting on a regular basis, cements it.
    We do not know how many remote sites storing HEU are being scouted 
today by agents of terrorist organizations or countries seeking to 
acquire the bomb. However, we cannot and should not take any chances. 
We should have the same urgency today that we had in 1994, and model 
the structure of GTRI negotiating teams on the tiger team concept that 
was so successful in Project Sapphire.

Conclusion
    In conclusion, I would like to stress that the Global Threat 
Reduction Initiative is a program of great promise, but just over a 
year after its launch, it needs attention and firm hands if it is to 
fulfill that promise. The first and most important step is for the 
program to achieve a stable and reliable funding base, which the Bush 
Administration has been working to accomplish. It is my view that such 
a funding base, if it were stable at $30-40 million per year over the 
Administration's current request of $98 million, would provide for an 
accelerated removal of HEU from the most vulnerable sites in four years 
rather than ten.
    But additional steps beyond money will be needed to achieve that 
acceleration. I have emphasized in this testimony the need for more 
intensive and nuanced diplomacy. Probably the most important factor in 
achieving this goal would be for the Administration to take full 
account of the other actors who would be available to contribute to the 
acceleration. Other countries might be willing to take responsibility 
for storing or disposing of the material, and private companies or non-
governmental organizations might have a more efficient way of achieving 
success in the various take-back projects. Although it is difficult to 
manage a large group of players, making use of this wider community is 
the only way in which, in my view, the Administration will be able to 
accelerate the program. In order to do so, of course, complications and 
delays in organizing contracting will have to be decisively addressed.
    In contracting as in other areas, however, the Administration has 
plenty of experience on which to draw. The experience of over a decade 
of threat reduction cooperation with the Russian Federation and other 
countries in the former Soviet Union and the G-8 has provided ample 
opportunity to work through difficult contracting and sub-contracting 
mechanisms. Some of this experience can no doubt be turned to the 
Global Threat Reduction Initiative.
    Indeed, to structure the acceleration, the Administration need only 
turn to the example of the most successfully implemented ``global 
clean-out'' activity so far, which was also the first--Project 
Sapphire. The responsible use of experienced government and laboratory 
personnel, empowered to make key decisions under the oversight of a 
high-level interagency group, was the most important factor ensuring 
that 581 kgs of highly enriched uranium left Kazakhstan within six 
months of the start of the project. If multiple tiger teams of this 
type could be formed, and could operate on a carefully coordinated 
basis in several countries at once, then removal of HEU from the most 
vulnerable sites could be completed in four years.
    Thank you for this opportunity to testify. I look forward to your 
questions.

    Mr. Linder. The Chair recognizes himself for 5 minutes for 
questions.
    A 4-year completion of the global clean-out seems very 
optimistic. Does that anticipate cooperation from Pakistan, 
China, South Africa?
    Ms. Gottemoeller. Yes, sir. I want to underscore that we do 
not believe that highly enriched uranium can be removed from 
every research reactor around the world in 4 years' time, and 
that we can achieve an entire conversion of reactors during 
this period to low enriched uranium fuel. That is the goal 
overall of the program, but I think we need to emphasize the 
most vulnerable sites where we have a great deal of concern 
that they might--
    Mr. Linder. Where are they?
    Ms. Gottemoeller. The list that I have--and it is very 
similar, I think, to the list that David Albright has--I 
concentrate on reactors in the former Soviet Union, in Belarus; 
in Kharkiv, Ukraine; in Tashkent, Uzbekistan; but also the 
materials in Serbia, in Belgrade, the Vinca reactors, those 
that remain there, and in Libya as well--we have promised the 
Libyans we will move that material, and we have not done so up 
to this point--South Africa and Pakistan.
    You asked about the cooperation of Pakistan. Indeed, we 
will, I think, have to engage in some very intensive diplomacy 
with them, but I think that working in cooperation with them to 
first upgrade the physical protection of the material that they 
have and then to move the material is possible, and that we 
should be applying ourselves to that effort.
    Mr. Linder. Mr. Albright, do we actually know how much 
Russia has? Does Russia know how much it has?
    Mr. Albright. I guess the answer is no to both. Russia 
certainly has an increasing knowledge of how much it has, and I 
think on the plutonium side, from what I understand, it has 
made a stronger effort. But the way they created their highly 
enriched uranium has made it so it is not so easy to know. I 
mean, they certainly know better than the United States would 
know, but it is still not good enough. And the United States 
should encourage Russia to try to understand its highly 
enriched uranium stock.
    The United States had to do that itself. I mean, there was 
a sort of a taking stock in the 1990s to try to go back and 
look at all the highly enriched uranium produced here and what 
happened to it, and then try to--in fact, they produced a 
report that was intended to be public, although is still not 
public to this day.
    Mr. Linder. Do we have any idea how much China has?
    Mr. Albright. China is very tough. I don't know what the 
United States knows about China. I know in our own work, their 
facilities, major plutonium and uranium enrichment facilities, 
that are part of their military production complex, they still 
do not admit to having it publicly. It is the only weapons 
state that hasn't revealed its production complex. And so we 
have a lot of concerns about how much material China has and 
the adequacy of its protection.
    Mr. Linder. How many locations around the world do you 
suspect that there is cesium 137 in? Ms. Gottemoeller.
    Ms. Gottemoeller. I do not know the answer to that 
question.
    Mr. Albright. I don't either. I don't know. It is a lot, 
but I don't know.
    Mr. Linder. And none of it is very carefully contained?
    Mr. Albright. That I don't know.
    Mr. Linder. Do you think we should know that?
    Mr. Albright. Certainly. And I think there is efforts to 
understand that both within the U.S. Government and at the 
International Atomic Energy Agency. And there has been, as you 
know, a major accident in Brazil many years ago that exposed 
the vulnerability of cesium.
    Ms. Gottemoeller. Mr. Chairman, may I make one point? There 
is an effort afoot, and I have recently seen a very excellent 
small book produced by the Sandia National Laboratory in 
cooperation with the Department of Energy, to lay out some 
clear priorities as to which of the radiological materials are 
the most dangerous, and to give some information, some general 
idea of where those materials can be found, how many locations 
around the world. So I commend that to you. I just don't have 
that under my brain, so to speak.
    Mr. Linder. It is something we should be concerned about?
    Ms. Gottemoeller. Definitely, definitely.
    Mr. Linder. And where would you start? With the hospital 
associations? Where would you start something like that?
    Ms. Gottemoeller. I think really the most important effort 
is the one that we have already begun, to engage countries to 
talk about the issue, and to raise their awareness of the 
problem, and to begin to take some steps to enhance the 
physical protection of radiological materials, but it is, in 
the first instance, an educational effort. And there is always 
the balance. You want to be able, of course, to be able to 
provide cancer treatments to patients and so forth, so you 
don't want to undertake steps that would sharply constrain 
medical treatment or the industrial uses of these radiological 
devices. So there has to be a balance struck. And I think we 
have begun, effectively, to talk with countries about the 
dangers, and also to take steps to enhance physical protection.
    And it does involve, as you note, reaching out also to 
professional organizations, but in the first instance they are 
going to be very concerned about ensuring that the efficiency 
of the services they provide can continue.
    Mr. Linder. Thank you both.
    The Chair recognizes the gentleman from Rhode Island for 5 
minutes.
    Mr. Langevin. Thank you for your testimony today.
    Let me begin by asking this question: As I mentioned in my 
opening statement, security in Russia still concerns me, and 
after the testimony we heard last week from Mr. David Huizenga 
at the Department of Energy, Mr. Huizenga revealed that his 
Russian counterpart had informed him that there were 200 
potential nuclear or radiological smuggling incidents in the 
last year alone. This testimony confirms the key judgment from 
the National Intelligence Council's report to Congress on the 
safety and security of Russian nuclear facilities and military 
forces published in 2004, which states that undetected 
smuggling has occurred since the end of the Cold War.
    Now, I find this information deeply troubling, and I would 
like to hear your opinions about what improvements of our 
nonproliferation programs are needed to reduce the number of 
smuggling incidents. And is this an issue of funding, or does 
the problem lie in the political and bureaucratic roles that 
have hindered our efforts with the Russians since the end of 
the Cold War?
    Ms. Gottemoeller. In my view, sir, it is a combination of 
both factors. And again, I think that this is a problem that, 
although perhaps enhanced financing could help, in some ways it 
is just taking advantage of resources already entrained. For 
example, one of the issues with the potential cases of nuclear 
smuggling has to do with inadequate monitoring and sensing 
technology that is available really to any airport authority or 
any port authority.
    So there is a lot of work that is currently going on in the 
context of joint U.S.-Russian cooperation under the Warhead 
Safety and Security Exchange Agreement, for example, in which 
we are working on monitoring and sensing technologies for 
counterterrorism purposes, but getting enough focus on those 
technology programs and then getting those technology programs 
deployed in the field takes some attention, takes some policy 
attention, and might take a little bit more financing as well.
    But I think the technology question is an important one. 
Can we improve those monitoring and sensing systems? I would 
like to know how much of those potential cases turned out to be 
false alarms, for example. Since I was not here, I am not sure 
exactly what the overall quality of the cases was in the 
testimony. But nevertheless, I think that we have, you know, 
now cooperation going on with the Russians, so we get this kind 
of information through our Second Line of Defense Program and 
other government programs.
    But in a sense I agree with you, there is a lot that we 
don't know, particularly about what has happened over the years 
since the breakup of the Soviet Union. So we need, I think, to 
continue this effort and to intensify this effort, particularly 
with regard to technology development and deployment.
    Mr. Albright. I think the United States should redouble its 
efforts to try to remove some of the bottlenecks in the 
cooperation with Russia on dealing with some of the fissile 
materials; namely, trying to find a solution to the problem of 
access to additional sites and the liability. And I think there 
probably needs to be some compromise even on the U.S. side, 
maybe some new offers to Russia, in order to try to facilitate 
that, because I think in the end it is in our interest to have 
our people in as many places as possible, and in a sense get 
our eyes on the ground or boots on the ground inside these 
facilities so we can get a better sense of the vulnerabilities 
and the priorities.
    Mr. Langevin. In your testimony you were talking about our 
interaction with the Russians and their, really, lack of full 
understanding and knowledge of what they have and what is not 
be accounted for. And one can clearly understand how on the one 
hand they would want to be forthcoming, and on the other hand 
if some of the other stuff is unaccounted for and it is loose 
out there, they don't want to be forthcoming because they don't 
want their fingerprints on it.
    Do they clearly get it and understand that it is really in 
our mutual best interest to be as forthcoming as possible? I 
mean, they have to understand that, you know, were a nuclear 
device to be detonated, there is a signature that very likely 
can be traced. But do you feel that--what are the hurdles we 
need to overcome to get them to be more forthcoming about what 
they have or what is unaccounted for?
    Ms. Gottemoeller. Frankly, sir, it is a mixed picture with 
the Russians. On the one hand, we have statements from 
President Putin, very direct and serious statements, 
recognizing that this is a threat, recognizing that they need 
to take care of the problem; but we also have statements from 
the Minister of Defense saying, well, we don't have a problem, 
we perfectly guard all out material and warheads, this is not a 
difficulty.
    So there is a contradiction in Russian policy that I think, 
in my view, flows out of the legacy of the Soviet Union. We 
found, when we first began the material protection control and 
accounting programs, that they had had a somewhat cavalier 
attitude toward accounting for nuclear material. In typical 
Soviet economic style, if they had a little time at the end of 
the month, they might produce a little extra material and stash 
it away so they could use it to fulfill the plan in another 
month, and maybe they didn't quite keep the books as well as 
they should have in those cases.
    So I think we are seeing a kind of a legacy from the Cold 
War based not the only on their looseness in accounting in 
those years, but just good, old-fashioned Russian xenophobia, 
that they don't like to admit they have a problem.
    That said, I would say that in the last almost decade and a 
half of joint work with the Russian Federation, there is a 
great realization that has begun to occur; it extends to the 
President, as I mentioned a moment ago, but also down into the 
Russian Atomic Energy Agency, where I have many counterparts. I 
continue to work with them quite intensively. They recognize 
they have a problem, and they want to ensure that their 
warheads, their nuclear materials are accounted for and safely 
protected.
    It also goes with the Russian Navy. They have been, in my 
view, a kind of very positive example of the kind of 
cooperation we can have when they recognize they have a problem 
and they recognize that we can help them quickly to solve that 
problem.
    So I hate to say it, but it is a mixed picture; and we have 
to continue pushing and pushing to get a full realization 
through that political elite of the kind of problem that they 
are dealing with.
    Mr. Linder. The time of the gentleman has expired.
    The gentleman from Nevada is recognized for 5 minutes.
    Mr. Gibbons. Thank you, Mr. Chairman. And to our witnesses, 
welcome to the committee. We are happy to have you. And your 
testimony certainly has been enlightening for many of us.
    We talk about tons of either highly enriched uranium or 
plutonium spread around the country in various areas, yet you 
never mention how much of each it takes to make one bomb. How 
much does it take? I presume, Mr. Albright, as a physicist you 
know that number. How much enriched uranium does it take to 
make one bomb; how much plutonium does it take to make one 
bomb?
    Mr. Albright. For a crude version weapon, if it is weapons-
grade uranium, sort of the upper--better HEU, 15 to 20 
kilograms would make a crude implosion weapon. There is an 
enough for a--
    Mr. Gibbons. What kind of yield would we be talking about?
    Mr. Albright. It depends on the scale, but in the kilotons 
is quite possible. I mean, in a country like Iraq, we are 
shooting toward 15, and it wasn't that sophisticated of a 
device. With plutonium, you know, 4 or 5 is enough.
    Mr. Gibbons. Kilograms?
    Mr. Albright. Yes. If you want to make a simpler bomb, use 
a gun type, and you would use weapon-grade uranium, then it is 
about 50 kilograms; and that is less sophisticated and easier 
to make.
    Mr. Gibbons. You know, research reactors have been around 
for decades. Material used for research reactors has been 
available for decades; terrorists have been attempting to 
acquire these materials for many, many years. I guess the issue 
that I would ask, between the countries that have research 
reactors, the black market, countries like Iran and North 
Korea--North Korea would sell anything to anybody for the right 
price, technology, weapons, sensors, et cetera, that has been 
proven over the years--how do we know, or how do we have any 
assurances today that access by some of these groups to this 
material has not already occurred?
    Mr. Albright. You can't exclude it. I mean, you would--and 
there are--I think particularly because of the problems in the 
Soviet countries, you do worry that some has been taken, but we 
haven't seen any evidence that that has happened. And so--but 
you do worry about it, and that adds to the need to move 
forward on this to try to protect the material that is there, 
and then try to increase our knowledge about what was produced 
originally, and then answer this very difficult question, has 
any gone missing?
    Mr. Gibbons. Well, it seems to me that we talk about tons 
in the overall picture of things, and we talk about small 
amounts, kilograms, when we are talking about weapon 
capability. So we are talking macropicture on availability and 
a micropicture on terms of requirements.
    Mr. Albright. That is right. And that is why you have to 
worry about so many locations, because you don't need that much 
to make a bomb. And again, it adds to the urgency of the 
problem, that this cannot be set aside. And it does require the 
United States Government in particular to take the lead because 
we care the most, and we recognize the danger the most, and so 
we have to make sure that we maintain our leadership and get 
the cooperation of key countries to push this forward.
    Mr. Gibbons. Ms. Gottemoeller, all of the countries of the 
former Soviet Union that were nuclear capable or had stocks of 
highly enriched uranium or weapons-grade munitions of plutonium 
or uranium, how many of those countries are actively working 
with us to solve this problem? Do we know which countries are 
voluntarily coming forward, which are reluctant, which ones 
have questions that should be highlighted at this point in 
time? And how do we bridge the gap with the more reluctant 
countries?
    Ms. Gottemoeller. That is an excellent question, because in 
each of the cases there are difficulties. Belarus, for example, 
has 400 kilograms of fresh highly enriched uranium at the 
Slovene reactor. I think it is a very serious situation, but 
our diplomacy has been constrained for good reasons in Belarus 
because we are very concerned about President Lukashenko and 
his antidemocratic, antireform tendencies. So I think we have 
had to kind of work around overall U.S. policy in Belarus in 
order to try to engage and work with them.
    But I would nevertheless urge again, because of the 
horrific nature of this threat--and historically we have 
continued to work in countries of the former Soviet Union even 
when we have had other problems with them, because we believe 
that this threat is so significant that we really need to 
concentrate on it.
    In Kharkiv, in Ukraine, again, over the past several years, 
because we have had differences with President Kuchma, we have 
had difficulties, I think that issue has been pushed onto the 
back burner. But there you have 75 to 100 KGs again of fresh 
HEU enriched to 90 percent; very, very good material for a bomb 
maker.
    So we need to, again, redouble our efforts in Ukraine. And 
in my view, Ukraine is a country that can take a lead on 
nonproliferation issues because it made the important decision 
back in 1994 to give up almost 2,000 nuclear warheads and 
become a nonnuclear weapon state under the NTP. It has shown 
itself capable of leadership in this arena, so I think we need 
to reach out to them.
    One final example is Uzbekistan, and here just in the past 
month we have had severe instability, challenges to the 
government, difficulties with, again, a very difficult regime 
in some ways. Again, I think despite all the problems, we need 
to redouble our efforts and figure out ways to work for 
diplomacy nevertheless, because it is such an urgent issue.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Linder. The Chairman now recognizes the gentleman from 
the State of Washington Mr. Dicks for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman. And I am delighted to 
see both of the witnesses here today and appreciate their 
testimony.
    Ms. Gottemoeller, in your testimony you make a powerful 
assertion that for only $40 million a year, over the 
administration's current request of $98 million--this is for 
the Department of Energy program--we could cut this 10-year 
schedule to just 4 years. Could you elaborate on that?
    Ms. Gottemoeller. Yes, sir. That figure is associated, 
again, with a rough estimate, I have to say. I think it would 
be required to have further discussions with the U.S. 
Government, with the Department of Energy about firming up the 
estimate. But my view is that the additional funding 
essentially is required in order to be able to offer additional 
incentives to countries, to be able to go in and say to them, 
we have the flexibility to work with you to purchase your HEU, 
to help you with the cleanup and decommissioning of the 
facility if necessary, if it is going to be shut down. If it is 
going to be converted, we have the flexibility to move quickly 
on the conversion effort.
    Furthermore, I think another area where incentives need to 
be offered is to the scientists, the technicians and the 
reactor operators who see their jobs, perhaps, going out the 
window if the HEU is removed from their country. And a lot of 
the resistance at the negotiating tables comes from those who 
are interested in a personal and professional way. So we need 
to understand that and be able to work with them on transition 
programs, on engaging them in scientific research collaboration 
perhaps in the United States at our facilities. And for that 
reason I believe that that figure is justified. It is really to 
give the administration the additional flexibility it needs to 
move quickly, again on multiple fronts. That is the final point 
I will make, Mr. Dicks, to be able to have multiple negotiating 
teams operating at once.
    Mr. Dicks. How well does the Department of Energy and the 
Department of Defense--they have separate efforts, right; 
separate efforts in the Global Threat Reduction Initiative, and 
then Nunn-Lugar for the Department of Defense? How well do they 
work together, or do they?
    Ms. Gottemoeller. In my view--the Global Threat Reduction 
Initiative, as I understand it, is wholly owned by the 
Department of Energy, so to speak. But you are quite right. 
There are a multiplicity of so-called cooperative threat 
reduction, nonproliferation cooperative projects, some of them 
located in the Department of Defense and some of them in the 
Department of Energy.
    To be very honest with you, sir, during my time at the 
Department of Energy in the late 1990s through 2000, there were 
many bureaucratic battles, many difficulties in the two 
agencies working together. But it has been my perception and my 
understanding, staying in close touch particularly with the 
Department of Energy, that those bureaucratic difficulties have 
been eased in recent years, and that the two agencies work 
together rather well at the present time.
    Mr. Dicks. Do you think there is strong Presidential 
leadership behind these programs? In other words, if you are 
going make these things work, get the DOE and the Department of 
Defense to cooperate, you have got to hear from the White 
House, I would assume. Does that kind of leadership exist?
    Ms. Gottemoeller. President Bush has the right talking 
points, sir; he says the right thing. Like President Putin, he 
believes this is a very serious threat, and he expresses a 
clear desire to work on it.
    My view is that that kind of Presidential direction, 
however, does not filter down adequately to some of the top 
leadership of the Bush administration, and that there have been 
barriers placed in the way of implementing these programs.
    Mr. Albright raised the question of liability a few moments 
ago. That, in my view, is, again, a kind of bureaucratic 
roadblock and an excuse for stopping the program more than a 
real legal problem that has to be dealt with. There are many 
ways to solve a liability question, but it has been used as a 
way to stop implementation of these vital--
    Mr. Dicks. Explain the liability issue to me again, would 
you? Just to make sure I understand what we are talking about 
here.
    Ms. Gottemoeller. The liability issue has to do with 
protection for contractors who are working on major projects, 
particularly construction projects, in the former Soviet Union. 
We have been concerned about it, as we look at the plutonium 
disposition program. If we start up some major construction and 
there is an accident of some kind, will the liability 
essentially be pushed off onto the U.S. contractor?
    So there are some good reasons to examine this question, 
but I would just like to point out that there are successful 
means of dealing with it. In the nuclear energy, the civilian 
nuclear energy arena, for example, we have for many years had a 
very good system of liability protection.
    So there are ways to look at solving this problem. It does 
not need to be--
    Mr. Dicks. Have there been proposals--and, Mr. Albright, 
you can jump in here any time you want.
    Mr. Albright. I can report on a recent article in the 
Washington Post. It was posited in the article that John Bolton 
was one of the obstacles--
    Mr. Dicks. I am shocked.
    Mr. Albright. I can't verify whether it is true or not, but 
there has been a sense that some of the resistance on the U.S. 
side has been unnecessary, and that it could have been solved 
quicker.
    Mr. Dicks. Thank you, Mr. Chairman. My time has expired.
    Mr. Linder. The Chair now recognizes the gentleman from 
California Chairman Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    My colleague from Nevada earlier asked how much nuclear 
material it takes to make a nuclear weapon of a certain yield, 
and, of course, in our classified setting we have gone rather 
deeply into this. I think we can begin from the premise that 
there is enough extant fissile material in the world, by 
several estimates, to produce 100,000 bombs, so it is a big 
number. And there is plenty of room for differences in 
estimates without escaping the conclusion that this is an 
enormous problem.
    And so setting out as we have done with the Global Threat 
Reduction Initiative is the most recent effort, and other 
international arrangements to try to reduce and ultimately 
secure or eliminate global inventories of fissile material is 
exactly the right thing to do.
    But we are focused on, in this subcommittee, something even 
more specific, and that is the prevention of nuclear or 
biological terrorism in the United States. And, Mr. Albright, 
you have helped us at previous hearings with that flowchart to 
sort of drill down to that question, if you are trying to 
arrest the action of terrorists in time, well before a weapon 
is smuggled onto our soil or constructed here, what can we 
focus on; what are the key items that we can be looking for 
that, the telltale signs of terrorist activity in this area? 
And, of course, the putting together of a nuclear weapon, its 
fissile material, is probably the most difficult aspect of 
this. Both of you have pointed this out in your formal 
testimony.
    What I would like to see if we can do a little bit of this 
morning is link the testimony that you have provided in the 
subjects that we have discussed thus far; that is, how we 
achieve our goal of reducing global inventories, how we reduce 
to a minimum or zero, wherever possible, cleanup, if you will, 
in those countries that are willing, link that to our separate 
work in intelligence. Because what we are finding is that, for 
example, with venue-specific analysis of terrorism, we quickly 
run up the costs. If every counterterrorism analysis is viewed 
as airport security or port security or shopping mall security 
or stadium security or nuclear power plant security or what 
have you, we are missing an opportunity, because the common 
threat, of course, is the terrorists themselves.
    What can we do, given all that you know about this problem 
of fissile material, to link the work that is ongoing and that 
you are both involved with, with the separate work that we know 
is going on in the Intelligence Community, to track the 
activity of specific known terrorists and their associates? How 
can we put these two pieces together?
    And I would ask that question of both of you. And, Mr. 
Albright, since I last left off with you at this very point in 
a different hearing, I will start with you.
    Mr. Albright. Yeah. I think there is a clear linkage. And 
although there is a lot of fissile material in the world, it is 
still pretty much viewed as a valuable material by everybody 
who holds it. And so they do try to protect it to a certain 
level. They try to know roughly what is there, if not precisely 
what is there. And so in a way it is a manageable number of 
sites.
    And I think that the United States, through all its various 
programs, GTRI, there is reduced enrichment for research and 
test reactor programs to convert reactors from HEU to LEU 
fuels. There is the MCC efforts in the former Soviet Union, and 
there are many more.
    We know a lot about these stocks and these locations; it is 
not perfect knowledge, but we know a lot. And I think it is in 
our interest to try to make sure that that information is known 
by the Intelligence Community. And I am not suggesting 
espionage, but I am suggesting more coordination, and that the 
people at the Department of Energy who have tremendous 
knowledge I do not believe are fully probed to what they know 
by our Intelligence Community, and that they could help provide 
a much greater sense of what are the problems at these foreign 
sites and not only perhaps provide some early warning of theft, 
but also provide a way to increase their security, and taking 
other steps that could perhaps be motivated by what is learned 
from the intelligence side and conveyed to the Department of 
Energy.
    So I think that cooperation between intelligence and the 
people on the ground is vital in this effort, and it should be 
improved. I know there is efforts to do that, but from what I 
understand in talking to some Department of Energy officials, 
for example, they are not being asked about what they know, 
some of whom have tremendous experience in many, many 
facilities.
    Mr. Cox. Ms. Gottemoeller, do you think that we are 
sufficiently connecting the dots here? Is the new Director of 
National Intelligence, is the National Counterterrorism Center 
fully plugged into the work that is ongoing in the area of 
nonproliferation, and specifically securing fissile material?
    Ms. Gottemoeller. As always, sir, there has to be a balance 
between having a good cooperative relationship with our 
partners, but also then understanding what the overall threat 
is and what the overall problem is. So I actually agree with 
Mr. Albright, that there should be some judicious communication 
of what is understood from working together with the Russians 
and with others.
    But I would like to take the point a little bit further, 
actually, because the Russians themselves now are acutely 
aware, particularly in their security services, about the 
terrorist threats they face. The Beslan attack this past year, 
another terrorist attack, very serious in Russia, in my view, 
have changed the attitude of many. I spoke a while ago about 
sometimes they don't seem to take this problem very seriously, 
but in my view, within the intelligence services, within the 
security services, because they have the counterterrorism 
mission, they are very serious, indeed, about the effort to 
counter these terrorist efforts to get nuclear materials.
    And we have begun to have some effective cooperation with 
them, I am only aware of it at an unclassified level, but that 
I think that is an area that we should be building up in order 
to enhance our understanding of the terrorist threats overall, 
and I think that it is quite feasible to do so.
    Again, I spoke a few moments ago about the need to develop 
additional cooperation on monitoring and sensor systems and 
that type of thing, with very knowledgeable and skilled Russian 
experts. That is the kind of hardware side of things. But in 
terms of developing increasing cooperation on the intelligence 
side with the FSB, with the Russian security services, I think 
that could also help us with this program.
    Mr. Cox. Thank you very much. My time has expired.
    Mr. Linder. The gentlelady from Washington, D.C., is 
recognized for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. And I 
certainly appreciate very much the testimony of these 
witnesses.
    I have a couple of questions. Particularly given the 
testimony, your testimony, Ms. Gottemoeller, about the 
relatively small amount of money it would take to reduce the 
10-year year period, I am interested in the Russian 
contribution, whether or not some version of burden-sharing is 
going on here. The reason I ask is, you know, with Chechnya 
right there in your face, the incentive, it seems to me, for 
the Russians would be awesome.
    Would you tell me something about the Russian contribution 
to the threat reduction effort?
    Ms. Gottemoeller. Again, that is a very important point, 
Ms. Norton, because in the past the Russians were really 
engaged in an assistance kind of relationship with us, and they 
were willing to work on the programs and only too happy to take 
our money. But in the recent period--and really I would say in 
the last year and a half--they had begun to be much more aware 
of the necessity of playing a fuller partnership role, and that 
includes putting their own resources on the table.
    Now, are we--you know, are we there yet? Not completely, 
because they continue to be only too happy to take, you know, 
assistance from us for certain of these programs. And I do 
think that it is important to note that their economy, although 
it is growing, continues to have a wealth of problems that they 
have to wrestle with.
    And I think it is important for our national security to be 
working closely with them, so it is a good investment, the 
money we put into these programs. But I think they have got the 
right mindset now, that they need to begin paying more for 
these programs. And we have actually seen evidence that they 
are taking more responsibility for providing resources, for 
providing money for contracts and that type of thing. So I 
think we are on the right track with them, but we need to keep 
pushing in that direction.
    Ms. Norton. You have no idea about the amount of resources 
of their own that go into threat reduction in their own 
country, for example?
    Ms. Gottemoeller. It is a difficult question. I recently 
was involved in a National Academy of Sciences study with the 
Russian Academy of Sciences, and I pushed them on this very 
question. They provide a lot of in-kind services. For example, 
they will provide the soldiers who come and dig the foundation 
points for a fence to go around a facility. So how do you 
account for the salaries of those young soldiers? It is very 
difficult--
    Ms. Norton. We got into this--I only have 5 minutes--we got 
into this in the first place, of course, because of the state 
of the Russian economy. It couldn't be a better investment. I 
just think as time goes on, we are going to have to expect more 
contribution from them.
    I have a question--especially as we see a surprisingly new 
regime in Iran where everyone thinks we are kind of back where 
we were--I have a question about the way countries look at us. 
We have seen administration initiatives, nuclear initiatives 
here of our own. Of course, there has been some reduction in 
our own nuclear arsenal, our cooperation with the Russians on 
our missiles, of course, but I wonder whether or not our 
credibility is at all hurt by our own pressing for some greater 
nuclear initiatives of our own, and perhaps by the extent to 
which we ourselves are not further reducing our own nuclear 
arsenal.
    Mr. Albright. Let me--on Iran, I wouldn't give up hope on 
Iran. The President of Iran typically doesn't have a lot of 
influence on Iranian national security, so I think he even 
admitted that the negotiations on the nuclear issue, 
particularly with the Europeans, is done elsewhere. So I think 
it is not a good development. And I think people were hopeful 
about Rafsanjani perhaps wanting to reach out to the West. I 
wouldn't--just--I wouldn't give up hope. I mean, there is 
still--the negotiations will continue, and they were expected 
to be extremely difficult in any case.
    In terms of the example--I think the example set by the 
United States, I mean, under the Nonproliferation Treaty, 
article 6, the United States is committed to work toward 
nuclear disarmament. It doesn't give a time frame, it doesn't 
provide a formula, but there has been disappointment around the 
world that the United States hasn't been willing to take more 
steps. And the Bush administration disagrees, but the last 
Nonproliferation Treaty Review Conference a couple months ago 
didn't go very well partly because of this issue.
    And so I think if--to the extent the United States 
negotiates treaties or agreements to reduce its nuclear 
arsenal, that that helps in general. I mean, I don't think it 
is going to convince Iran to give up its nuclear--particularly 
its uranium enrichment program, but it does help and make it is 
easier for our allies to participate in nonproliferation 
efforts and remove some of the tensions that currently exist.
    Ms. Norton. Ms. Gottemoeller--
    Mr. Linder. The gentlelady's time has expired.
    The gentleman from California Mr. Lungren is recognized for 
5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Ms. Gottemoeller, I would like to go back to the question 
of the liability issue. I serve on the Judiciary Committee, and 
we deal with that often. This is the first I have heard it come 
up in this context, and I would like a little more information 
on that.
    What precisely is the problem? And you suggested there were 
some easy ways to fix it. I would really like to know.
    Ms. Gottemoeller. We could spend a good couple hours on 
this question, but--
    Mr. Lungren. They only give me 5 minutes.
    Ms. Gottemoeller. I know. I will say a few things.
    The difference arose because of the different language that 
appears in the so-called Cooperative Threat Reduction Umbrella 
Agreement and language that has appeared in certain other 
agreements, most recently in the so-called MNEPR agreement, 
which is a multilateral nuclear environmental cooperation 
agreement that the European Union, other members of the G-8 
have negotiated.
    So the position of the current administration has been that 
only the CTR umbrella agreement language is adequate to provide 
liability protection for contractors working in this arena. My 
view of this, sir, is that, in fact, neither the CTR agreement 
nor the MNEPR agreement, nor the original plutonium disposition 
agreement provides the adequate protection, and that there are 
additional steps the United States Government would have to 
take in any event, such as the CSC agreement that is coming up; 
it is the Convention on Supplemental Compensation that is 
coming up for ratification before the Senate. It has currently, 
as I understand, been sent to the Senate for review and 
discussion.
    So there--in a way, it has been a bit of a red herring, in 
my view, because there have been certain protections provided 
in these umbrella agreements negotiated, they have allowed the 
programs to be implemented; but if we are going to have a 
comprehensive solution of this problem, additional steps will 
have to be taken in any regard. And is the fact that we don't 
have a perfect system for liability protection at the present 
time a reason to stop implementation of these programs?
    Ms. Gottmoeller. In my view, the answer to that is no. So I 
think we have to continue to work in order to provide interim 
liability protections and work on a fuller solution over a 
longer-term period such as the CSC, ratification of the CSC.
    Mr. Lungren. My question is whether you find the problem 
right now with contractors who do not believe that they have 
proper liability protection, or some in government who prior to 
getting to the contractors don't believe it is sufficient.
    Ms. Gottmoeller. Well, it has been my understanding, 
talking to the contracting industry, that, again, they think 
there needs to be a longer-term solution to this problem. Up to 
this point they have been willing, with certain protections 
provided by the Department of Energy, for example, to continue 
work, but they do believe that there needs to be a longer-term 
solution to the problem. And, in the interim, they are 
interested in seeing the contracts of programs go forward.
    Mr. Lungren. You state in your testimony, both in your oral 
testimony and your written testimony, that the Global Threat 
Reduction Initiative is a program of great promise but it needs 
more money. And you suggested that $30 to $40 million per year 
over the administration's request of 98 million would be in the 
right ballpark. How do you arrive at that figure? What would 
that give us that we don't have now?
    Ms. Gottmoeller. At the present time, in my view, there is 
not adequate flexibility at the negotiating table for our 
negotiators. And this figure was arrived at considering the 
possibility of multiple negotiations going on at once and being 
able to offer to the countries at the negotiating table the 
ability to both buy their HEU on a rather quick turn-around 
basis, to be able to provide LEU cores to contract for the 
conversion of the reactors, or to contract for the shutdown and 
cleanup of the reactor sites. So it is based on the notion that 
we should have more flexibility, more resources available at 
the negotiating table to work with countries and to be able to 
carry out the programs on a quicker basis. And, not only one 
country at a time, but to have multiple negotiations going on 
at once.
    So it is, I have to stress, sir, a kind of seat-of-the-
pants calculation, but I do believe that that order of 
magnitude is what it would take to provide that kind of 
flexibility at the negotiating table.
    Mr. Lungren. You also mentioned that the--to stretch the 
acceleration, the administration need only to turn to the 
example of the most successful implemented global cleanout 
activity thus far, Project Sapphire.
    Ms. Gottmoeller. Yes.
    Mr. Lungren. Is your point that the administration is not 
following that? That even though it has been successful, that 
it has not been used as a model? Or is it more to the point 
where you have spoken of multiple negotiations going on at 
once? That is, that we could have several of these projects 
going on at the same time?
    Ms. Gottmoeller. The point with regard to Project Sapphire 
was associated with the particular mechanism that was put in 
place in order to implement it, this tiger team mechanism which 
involves having midlevel officials who are fully vested with 
authority by their agencies in order to be able to make 
decisions quickly, and having a high-level interagency team in 
place to which problems can be referred. So it is really a 
mechanism to move decisions through the bureaucratic process 
very quickly. And in that way it is a kind of mechanistic 
approach, I recognize, and a bureaucratic approach.
    But it was extraordinarily effective against a very tight 
timeline in Project Sapphire. We had to get that HEU out of 
Kazakhstan before the winter closed in. So I think that it is 
the kind of thing that doesn't cost any--that doesn't cost any 
extra money, but it does mean a different kind of mindset in 
terms of organizing the work and government.
    Mr. Albright. Could I add one thing? I mean, one of the 
things putting out by the Sapphire example is that the United 
States does need the ability to bring back non-U.S-origin 
highly enriched uranium or plutonium. And that is a tough one, 
and there has been a lot of debate and a lot of confrontations 
between the environmental movement and the arms control and the 
Department of Energy over the ability of the Department of 
Energy to bring back this non-U.S.-origin material. And there 
is a need for the Department of Energy to try to expand the 
envelope of material that it can bring back without starting an 
entire NEPA process again which could inflame all kinds of 
controversies.
    And if you look around at some of the problems, I mean, 
even in some of the former Soviet states or in the states with 
Russian HEU, certainly if you look at South Africa, it would be 
nice if the United States could take some of that material 
directly and have the authority to do so, in essence, to step 
in when there is a problem and offer an alternative that could 
both be realized. And I mention South Africa; it may be very 
useful in negotiation with them.
    Mr. Lungren. Would that require additional authorization 
from the Congress in order to do that?
    Mr. Albright. I don't know the legal details. I think it 
would certainly need congressional support, but I think it can 
be done without opening the NEPA process. But it is always 
difficult. And one of the biggest reasons you see delays in 
these programs is dealing with irradiated material is 
difficult, and it always generates concern and opposition, and 
overcoming that opposition requires tremendous resources and 
commitment. And I think the Department of Energy is willing to 
do that, and I think they have for many years, have shown 
leadership in trying to gain the right to bring this material 
here. And additional support from Congress I am sure would be 
welcomed.
    Mr. Linder. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Mississippi for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Taking off from the gentleman from California's comment 
about liability, are the present liability agreements that you 
just recently spoke of sufficient to cover the question of 
liability? Do you see us having to adopt some additional 
liability standards?
    Ms. Gottmoeller. In my view, they have to this point been 
sufficient for the implementation of the programs, particularly 
when they have not involved major construction projects. When 
there is planning going on, research work going on, cooperative 
activities going on that do not require major moving of the 
earth and construction of big buildings and so forth, the 
protection has been adequate. So that is one point to make.
    But as I mentioned a moment ago, in a very large strategic 
sense I do not believe that the protections provided in any of 
the liability clauses in the current agreements, whether it is 
the CTR Umbrella Agreement or the plutonium disposition 
agreement, I do not believe that those liability protections 
are adequate. And that is why I am arguing that we need to look 
to a broader solution to this overall problem such as the 
convention on supplemental compensation.
    Mr. Thompson. Thank you.
    Ms. Holmes Norton raised the issue about the notion of the 
double standard of the U.S. asking other countries to reduce 
their arsenals, while in some instances we are moving in the 
opposite direction. Have either of you found that to be a 
conflict in negotiations with other countries, or just what?
    Ms. Gottmoeller. When I have been meeting with countries, 
it has been very useful. And I will just refer to my experience 
when I was still a government official in 2000 at the last 
review conference of the Nonproliferation Treaty. I was invited 
up to New York as a senior U.S. Government official, along with 
a senior DOD official, and reported on the very extensive work 
that the United States has been doing to reduce the size of its 
nuclear weapons complex by closing down facilities like the 
Rocky Flats Plant in Colorado. That had a very strong impact on 
the delegates to the review conference in 2000. I really 
believe, based on that experience, that the United States needs 
to adequately communicate what it has been doing to reduce and 
eliminate its nuclear capabilities, its nuclear arsenal.
    In my view, the Bush administration simply failed in the 
latest review conference to carry out an adequate communication 
of our very real progress in this area. And I count that as one 
of the reasons while the review conference failed this time. It 
is not the only reason, but I do count it as a serious reason.
    Mr. Thompson. And we will get to you on that. Did you see 
that failure to highlight the positives as something 
potentially that will come back to haunt us in further 
negotiations? Or how do you propose to correct it?
    Ms. Gottmoeller. Well, in my view, the Nonproliferation 
Treaty is in trouble. And part of the reason for that is this 
very strong, now, division between those who believe that the 
United States and the other nuclear weapons states are not 
fulfilling their obligations under article 6 to eventually 
eliminate their nuclear weapons. And there is such a strong, I 
would say, conflict and division between countries who believe 
the United States is inadequately carrying forward its 
obligations and the United States and the other nuclear weapons 
states that, at the current time, in my view, it is difficult 
to see how we move forward on this question.
    But I will say that the Bush administration has made some 
sound decisions in this arena. They have sent up to this 
Congress a stockpile plan to reduce nuclear warheads by 50 
percent by 2012. Why they cannot get the story out about that 
stockpile plan, I do not understand. I do believe, as I said, 
that communicating that kind of information has a very positive 
effect on the world community.
    Mr. Thompson. Mr. Albright.
    Mr. Albright. If you are looking at tough problems like 
Iran and North Korea, I don't think U.S. action on its own 
nuclear arsenal is going to change anything. I mean, even in 
the case of Iran, even if Israel took certain steps to reduce 
its nuclear arsenal, I don't think that would change the 
situation with Iran. I think we can solve the problem with 
Iran, but it is going to have to do with dealing with Iran's 
own perceptions of its security and being able to offer it 
incentives so that it feels that if it gives up something, it 
has gotten something in return.
    That being said, I mean, there is--internationally there is 
a lot of disappointment that the United States gave up on the 
comprehensive test ban treaty; it more or less has given up on 
trying to negotiate a fissile material cutoff treaty to ban the 
production of plutonium or highly enriched uranium for nuclear 
weapons. There is concern that the rate of reductions isn't 
going as fast as it could. There is concern that the 
administration isn't paying enough attention, ironically, to 
verification of arms control treaties in Russia. There is 
worries that the United States could--you know, why doesn't it 
declare more material excess to military needs? It has huge 
inventories. And the world knows that if the U.S. doesn't do 
it, no one else will do it. I mean, that is partly why you want 
to set an example. It is not just to look good; it is to do two 
things: put pressure on the others to do the same, and the U.S. 
has the power to do that; and to try to create a barrier so 
that the other countries don't do something opposite to that.
    So I think that internationally there have been 
disappointments, and I would hope that the Bush administration 
would come back and revisit some of these issues.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Linder. The Chair recognizes the gentlelady from 
California for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman. And thanks to our 
witnesses for what you contribute to our body of information 
about this incredibly important subject. It is a challenge to 
do the right thing, and it obviously helps to have good facts 
and good advisers as we try to figure it out.
    I want to build on the questions asked by Chairman Cox 
basically about intelligence. In your testimony, Ms. 
Gottmoeller, you say that quantities of HEU have been removed 
from Libya, Uzbekistan, the Czech Republic, and Latvia. The 
program in some cases has left the job half done. So I think we 
should assume that some amount of HEU and probably other 
dangerous fissile and other materials are moving around the 
globe.
    It is my view that we are not good at WMD intelligence. 
This is not just based on our failures in Iraq, which were 
clear failures, but based on my review of the intelligence 
about WMD in other parts of the world. I think we are not good 
at it for lots of reasons. One is we are not good at 
penetrating terrorist cells. This is a very hard thing to do, 
and we are not good at it. Another reason is that sensors that 
we have developed, like radiation portal monitors, as this 
committee has learned, don't pick up quantities of HEU that are 
just modestly concealed. Another reason we are not good is that 
technology that flies around in space can't know what is going 
on in buildings. It can see buildings, but, as we learned in 
Iraq, not necessarily know what is being done in those 
buildings or in the trucks that are moving around or whatever 
it is. And another reason we are not good at it is that, what 
you called for, which is intensive and nuanced diplomacy, is 
not something we have been practicing well lately. And maybe 
not just lately.
    So my question to you is, how do we fix our clear 
intelligence gap on picking up the movement of fissile 
materials?
    Ms. Gottmoeller. Perhaps I will start. I see the necessity 
of action on three fronts. I mentioned earlier in my remarks, I 
believe it is important to continue to develop the working 
relationship that we have with the Russian security services. 
That has so far paid off in terms of our counterterrorism 
efforts, and I believe it has paid off for the Russian 
Federation as well. So I believe we need to continue to develop 
those kinds of relationships and see what we can do to expand 
the cooperation. It is difficult, of course, for reasons that 
all of us can understand.
    The second area, you mentioned of course that aircraft 
flying around with sensors do not see things inside buildings. 
But I have actually been shocked that the technology work on 
our national technical means of verification has really fallen 
off in the years since the Cold War. And I do believe that we 
need to continue to have a foundation of good technical means, 
national technical means for remote sensing that will allow us 
to continue the verification of arms reduction agreements and 
also that will give us some basic knowledge about what is going 
on in these countries. Big facilities like centrifuge 
facilities, you can see, and it gives you understanding even 
from high in space.
    The third area that I think we need to develop in addition 
to the technology developments--and I did talk earlier also 
about improving our monitoring and sensing capabilities again 
by working with scientists and technicians in Russia; that is 
an important direction. But we have really fallen off the wagon 
with regard to human intelligence. And I find again and again 
and again in talking to people at our agencies of intelligence, 
particularly at the CIA, that they feel that has been a severe 
gap that has developed in recent years. We are not paying 
attention in that area. So it is a slow rebuilding process, but 
that is the third front where I think we really need to open up 
an intensive effort.
    Mr. Albright. Let me come at it a little differently. From 
an intelligence point of view, you want access and you want 
transparency. And if I can go off on a little bit of a tangent. 
I mean, one of the reasons some of us support international 
inspections so much and in strengthening inspections is because 
it gives you both of those. And in many cases our U.S. 
intelligence won't learn the results of those inspections, but 
they learn about many of the details and they learn it in 
general.
    In terms of the fissile material we have been talking 
about, the Department of Energy personnel have access to a huge 
number of these sites, and they know a lot of the people. I 
mean, we were working on a country recently, a country that is 
very black, and who do we go to for some help? We went to a DOE 
person who knows people in that country and we relayed the 
question through the DOE person. And in this case it didn't 
turn out, we didn't get as much as we wanted; we got something, 
but again it was a tremendous amount of knowledge within the 
DOE complex about the sites that we are most concerned about. 
And I don't think the intelligence communities are doing enough 
to coordinate with them. And I think they could learn a lot, 
and the interaction between the two I think would help us all 
and I think it would also strengthen the DOE effort.
    Ms. Harman. Well, I agree with everything that has been 
said, Mr. Chairman. My time is up. But I would observe that, if 
it is true--and I believe it is--that HEU and other materials 
are moving around the globe which have come from inadequately 
secured sites in many nations, our challenge is not just to 
inspect facilities, but our challenge is to find the 
terrorists, assuming that those are the folks who possess these 
materials, before they harm us.
    And I just agree totally with Ms. Gottmoeller's comments 
about the need to do better HUMINT. That is something, 
obviously, all of us care about. The Intelligence Committee, of 
which I am Ranking Member, is investing in HUMINT, but we have 
an enormous amount of work to do, not just to hire more people, 
but to hire the right people who can penetrate the inner circle 
of these terrorist groups and find out their plans and 
intentions. That is the way we are going to find which 
terrorists are carrying what. I don't think our technical means 
are going to get there from here. I agree that it is basically 
a HUMINT enterprise, and I surely hope it will be successful.
    Thank you very much, Mr. Chairman.
    Mr. Linder. The time of the gentlelady has expired. The 
Chairman apologizes to the gentleman from Massachusetts for 
skipping over his name, and recognizes him for such time as he 
needs.
    Mr. Markey. Thank you, Mr. Chairman.
    Last week the subcommittee heard expert testimony on 
technological feasibility of detecting radioactive materials at 
our borders, using radiation portal monitors deployed by the 
Department of Homeland Security. We heard that there are real 
technological limitations to detecting highly enriched uranium 
smuggled in through our borders. In short, we cannot detect HEU 
and therefore cannot rely on our border screening to protect 
us.
    Do you agree with that? Either of you.
    Ms. Gottmoeller. Yes.
    Mr. Markey. You agree with that?
    Ms. Gottmoeller. Yes.
    Mr. Markey. You agree with that, too?
    Mr. Albright. Yes. We may get lucky, but--
    Mr. Markey. But right now, today, the technology don't 
work. The portal monitors don't detect. Is that correct? Do 
both of you agree with that?
    Mr. Albright. I don't want to make that absolute of a 
statement. But, generally, yes.
    Mr. Markey. How important is it for our national security 
people to have at least some interim technology which is 
deployed that can accomplish that goal? Is that an important 
objective we should have?
    Ms. Gottmoeller. Mr. Markey, I was making the point 
throughout the testimony this morning that I think there is a 
lot of work that is going on, I am aware of, particularly with 
Russian counterparts where there are developments to really try 
to address some of these more active rather than passive 
sensing, for example. And I think we need to support and try to 
get some of those developments deployed in the field. That is 
not an interim solution to your problem; it is a longer-term 
solution to your problem, but in my view that is an important 
direction to proceed.
    Mr. Markey. Let me move on to the HEU origin, U.S.-origin 
HEU, having the ban lifted on its transfer overseas. The Senate 
has now cut back the other way. The provision is still in the 
House bill, it is in the NRC authorization as well. Under the 
House provision, isn't it true that these foreign reactors 
would never have to convert to use of LEU as a reactor target; 
they can use HEU forever with no obligation to ever have to 
convert to LEU?
    Mr. Albright. I haven't seen the bill.
    Mr. Markey. The House bill.
    Mr. Albright. I haven't seen this version. I saw the one a 
couple years ago.
    Mr. Markey. Have you seen the House bill?
    Ms. Gottmoeller. I have not. No.
    Mr. Markey. Neither of you have seen it?
    Mr. Albright. Not in detail. But let me just add one thing. 
I do think that it is not a good idea to limit the Schumer 
amendment; that the U.S. to try to pressure countries to 
convert to LEU targets is very important--
    Mr. Markey. Do you agree with that?
    Ms. Gottmoeller. Yes, I agree with that.
    Mr. Albright. And I would hope that the Congress wouldn't 
pass a law that would undermine those efforts. And--
    Mr. Markey. So you would oppose the House language? You 
think that would be a bad--
    Mr. Albright. It is hard to know for sure. But if it is--
    Mr. Markey. Okay. You haven't seen it either?
    Ms. Gottmoeller. I haven't seen it either. If the language 
has been in effect--
    Mr. Markey. It has been in the New York Times and the 
Washington Post editorials. You haven't seen that yet?
    Mr. Albright. I have seen the stories.
    Ms. Gottmoeller. I have read the stories, but I haven't 
seen the bill itself. But the view is, if it has the effect of 
undermining the Schumer amendment, then I would oppose it.
    Mr. Markey. Let me move on. President Bush has called on 
the nuclear suppliers group to limit access to reprocessing 
technology because reprocessing results in the separation of 
plutonium 239 which could be used to make a nuclear weapon. In 
fact, it was in 1976, after India detonated a nuclear device 
made from plutonium separated at its civil reprocessing 
facility, that President Gerald Ford declared a moratorium on 
reprocessing here in the United States, despite the clear 
proliferation risk presented by this technology in the House-
passed energy and water appropriations bills, including money 
to develop reprocessing technology after a 30-year moratorium.
    Given that the President is calling on other nations to 
forego reprocessing because of the proliferation risk, how will 
this new U.S. initiative to reprocess affect our policies 
abroad?
    Mr. Albright. That one, I don't know. Is this pyro 
processing or--
    Mr. Markey. This is another version of pyro processing.
    Mr. Albright. Certainly the idea of pyro processing is to 
try to make it--
    Mr. Markey. The pyro processing is a very high-tech way of 
burning up large amounts of money for a technology which is 
going to destroy our--but this is just another variation on it.
    Mr. Albright. I just don't know.
    Mr. Markey. You don't know.
    Do you know? Are you familiar with this?
    Ms. Gottmoeller. I am familiar with it slightly. But let me 
just underscore that my understanding is the effort is to 
consider proliferation-resistant technologies. I do agree that 
there is a danger there in undermining the strength of our 
longstanding moratorium on reprocessing.
    Mr. Markey. Do you think it is possible for us to sell 
proliferation-proof plutonium reprocessing technology to the 
North Koreans and the Iranians? Do you think such a technology 
exists?
    Ms. Gottmoeller. I think that the intent is an exploration 
of whether it is possible to have fully proliferation-resistant 
technology.
    Mr. Markey. In your opinion, is such a technology possible? 
Would you trust such a technology at this point in time? Is 
this the right time, given what Iran and North Korea are trying 
to do, for us to be arguing that there is such a thing as 
proliferation-proof reprocessing?
    Ms. Gottmoeller. I simply do not know, Mr. Markey.
    Mr. Markey. You do not know. Do you know?
    Mr. Albright. No. I think part of it is to convince the 
French and some other countries not to proceed with--it is 
called partitioning, the transmutation programs that actually 
are much more dangerous and more sort of just a slight 
evolution from traditional reprocessing, where you separate not 
only your plutonium in this case but also neptunium and 
possibly americium, both of which are nuclear explosive 
materials.
    Mr. Markey. Can you comment on the assessment last fall by 
a DOE security assessor that the vulnerabilities of transport 
security for separated plutonium in France are far beyond what 
would be considered high risk and therefore prohibited within 
the Department of Energy? The security assessor came up with a 
new category of extreme risk to describe this particular area.
    Mr. Albright. I don't know the details. I would be actually 
very interested in learning more, because certainly there is a 
lot of plutonium, separated plutonium moving around France and 
other countries in Europe because they have pretty developed 
commercial reprocessing programs to separate plutonium and then 
to turn that plutonium into MOX fuel which is then sent out to 
reactors.
    So it is tons of material in transport, and it is an issue 
of how well the protection is because--and then, as much of 
this was dealt with, as you know, 20 years ago under some of 
your leadership and increased the security of--on separated 
plutonium in Europe. But you always worry, is it being 
maintained? Are countries becoming complacent. Are they really 
meeting the new standards?
    Mr. Markey. Are you familiar with this French situation and 
what the security assessor--
    Ms. Gottmoeller. No, sir, I am not.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Linder. The Chair would like to thank our witnesses for 
your helpfulness. The hearing is adjourned.
    I would like to point out to the members that our closed 
briefing is going to be at 1:00 in the SCIF over at the Adams 
Building. We are expecting votes at about 11:45.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
